No. 19-1290
IN THE
SUPREME COURT OF THE UNITED STATES
Michael Bennett
Plaintiff-Petitioner
VS.
Marvel Entertainment
Defendant-Respondent

PROOF OF SERVICE
do swear or declare that on this date,

I,

2020, as required by Supreme Court Rule 29 I have
served 1 copy of my PETITION FOR REHEARING of my WRIT OF CERTIORARI
to Marvel Entertainment LLC, Marvel Entertainment’s Parent company The Walt
Disney Company’s counsel Alston & Bird, by depositing an envelope containing the
above documents in the United States mail properly addressed to Alston & Bird and
with priority postage prepaid.
The names and address of those served are as followed:
Alston & Bird
Attention: Mr. Jason Rosenberg
One Atlantic Center
1201 West Peachtree Street
Atlanta, Georgia 30309-3424
I declare under penalty of perjury that the foregoing is true and corre< t. RECEIVED
Executed on

QciroWv

<ZS\

2020

NOV - 5 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

